No.
•;V >

IN THE
SUPREME COURT OF THE UNITED STATES

Keith De Barraore - PETITIONER
VS.
Scnja EftLcklaus, Warden - RESPONDENT( S)
/

J

j

PROOF OF SERVICE

Keith D. Barmore, do swear or declare that on this date,January 5

,

2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION

/

FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party s counsel, and on every
other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
Ihe name and addressed of those sewed are as follows:
V*

*

1. Attorney Erin O'Connell, Office of The Attorney General, 100 W. Randolph
Street, Chicago, IL 60601-3218
2. Clerk of The United States Supreme Court, Supreme Court Building, Washington,
DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

January 5

,2021

M. 1
RECEIVED

FEB 2 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

i

